l                                                            NA TIONAL SCIENCE FOUNDATION 

                                                              OFFICE OF INSPECTOR GENERAL 

                                                                OFFICE OF INVESTIGATIONS· 


                                                     CLOSEOUT MEMORANDUM                                            I


     . Case Number:AI0060040                                                                      Page 1 of 1




                     We reviewed an allegation ofplagiarism in three NSF proposals. 1 We contacted the Subjec.r,
               who acknowledged having inadequately cited some materiaL.
                                         .                    .
                      We determined that the small amount ofcopied material did notwarrant further investigation.
               We sentthe Subject a letter, reminding him ofthe importance ofproperly citing material within NSF
               proposals.

                         Accordingly, this case is closed.




    NSF DIG Form 2 (11/02)
